                                              OFFICE OF THE ASSISTANT SECRETARY
                                              FOR ADMINISTRATION AND MANAGEMENT

Office of Inspector General—Office of Audit




                                              THE DEPARTMENT OF LABOR’S
                                              CONTROLS OVER SOLE SOURCE
                                              PROCUREMENTS NEED STRENGTHENING




                                                                    Date Issued: September 30, 2008
                                                                    Report Number: 03-08-002-07-711
U.S. Department of Labor
Office of Inspector General
Office of Audit                                        September 2008

                                                       THE DEPARTMENT OF LABOR’S
                                                       CONTROLS OVER SOLE SOURCE
BRIEFLY…                                               PROCUREMENTS NEED
                                                       STRENGTHENING
Highlights of Report Number: 03-08-002-07-711,
to the Assistant Secretary for Administration and
Management, issued September 30, 2008.
                                                       WHAT OIG FOUND
                                                       DOL could not demonstrate the basis for awarding
WHY READ THE REPORT                                    contracts without full and open competition was
                                                       appropriate for 41 of the 62 (66 percent) sampled
                                                       sole source contracts. Specifically, we found
The Office of Inspector General (OIG) conducted
                                                       proper procedures were not followed in one or
a performance audit of sole source procurement
                                                       more of the following instances: justifications to
practices in the U.S. Department of Labor (DOL).
                                                       award sole source contracts were missing;
                                                       inadequate, or lacked the required reviews and
Federal regulations require full and open
                                                       approvals; documentation of the fair and
competition for the award of government
                                                       reasonable price determination for sole source
contracts, and allow only a limited number of
                                                       contracts was insufficient; required conflict of
exceptions to this rule. In DOL, the Office of the
                                                       interest certifications were not obtained from the
Assistant Secretary for Administration and
                                                       program officials requesting the sole source
Management (OASAM), is responsible for the
                                                       contract; and there was no evidence that the
overall implementation of the Department's
                                                       contracting officer submitted the offering notice to
procurement program and ensures that the
                                                       the Small Business Administration (SBA) for a
program complies with the appropriate laws and
                                                       SBA 8(a) sole source award.
regulations. DOL has a decentralized
procurement structure with the Mine Safety and
                                                       The audit also disclosed that OASAM could not
Health Administration (MSHA), the Employment
                                                       locate 5 of 40 contract files we requested because
and Training Administration (ETA), the Bureau of
                                                       it did not have an effective inventory control
Labor Statistics (BLS), OIG and OASAM having
                                                       system. Without these files, DOL cannot provide
their own procurement authority. OASAM has
                                                       a complete history of the procurement actions or
overall responsibility to ensure these agencies
                                                       support the basis for decisions and actions taken
adhere to procurement regulations and
                                                       throughout the acquisition process.
procedures.

WHY OIG DID THE AUDIT                                  WHAT OIG RECOMMENDED
The purpose of our audit was to answer the             We recommend the Assistant Secretary for
following question:                                    Administration and Management implement
                                                       policies and procedures that require: appropriate
    Were proper procurement procedures                 higher level reviews for sole source contracting
    followed when awarding sole source                 actions; agency internal quality control processes;
    contracts?                                         OASAM implement a comprehensive oversight
                                                       plan to monitor agency procurement programs;
                                                       and OASAM implement an effective inventory
READ THE FULL REPORT                                   control system to account for all procurement files.
To view the report, including the scope,
methodology, and the Deputy Assistant Secretary        In response to the draft report, OASAM’s Deputy
for Operations’ response, go to:                       Assistant Secretary for Operations expressed
                                                       concern that the report gives a misimpression of
http://www.oig.dol.gov/public/reports/oa/2008/03-08-   the Department’s procurement practices. The
002-07-711                                             Deputy Assistant Secretary stated that while there
                                                       is always room for improvement, the Department’s
                                                       procurement practices are sound. However,
                                                       the Deputy Assistant Secretary generally agreed
                                                       with the recommendations.
                                 The DOL Controls Over Sole Source Procurements Needs Strengthening




Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

   DOL Did Not Always Appropriately Justify Sole Source Procurements
   and Follow the FAR and DOL Requirements .......................................................... 8

   OASAM Did Not Have Effective Internal Controls
   to Account for Contract Files ................................................................................. 23

EXHIBITS...................................................................................................................... 27

   A. Universe and Sampled Procurements by
      Agency and Acquisition Threshold .................................................................. 29

   B. Incidents of Non-Compliance With Sole Source
      FAR and DOL Requirements .............................................................................. 31

   C. Incidents of Non-Compliance With General
      FAR and DOL Requirements .............................................................................. 35

APPENDICES ............................................................................................................... 39

   A. Background ......................................................................................................... 41

   B. Objective, Scope, Methodology, and Criteria ................................................... 43

   C. Acronyms and Abbreviations ............................................................................ 47

   D. Agency Reponse to the Draft Report ................................................................ 49




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                    2
Report Number: 03-08-002-07-711
                            The DOL Controls Over Sole Source Procurements Needs Strengthening




Executive Summary
The Office of Inspector General (OIG) conducted a performance audit of sole source
procurement practices in the U.S. Department of Labor (DOL). Federal regulations
require full and open competition for the award of government contracts, and allow only
a limited number of exceptions to this rule. In DOL, the Office of the Assistant Secretary
for Administration and Management (OASAM), is responsible for the overall
implementation of the Department's procurement program and ensures that the
program complies with the appropriate laws and regulations. DOL has a decentralized
procurement structure with the Mine Safety and Health Administration (MSHA), the
Employment and Training Administration (ETA), the Bureau of Labor Statistics (BLS),
OIG and OASAM having procurement authority. OASAM has overall responsibility to
ensure these agencies adhere to procurement regulations and procedures.

We designed the audit to answer the following question:

        Were proper procurement procedures followed when awarding sole source
        contracts?

In fiscal year (FY) 2007, DOL awarded 809 sole source contracts totaling over
$47.8 million. 1 We sampled 62 of these sole source contracts.

Results

Our audit disclosed that for 41 of the 62 (66 percent) sampled sole source contracts
totaling $15.5 million, DOL could not always demonstrate the basis for awarding the
contract without full and open competition was appropriate. For these 41 sole source
contracts, totaling $14.1 million, proper procedures were not followed in one or more of
the following instances:

    •   Justifications to award sole source contracts were missing, inadequate, or lacked
        the required reviews and approvals (21 occurrences);

    •   The documentation of the fair and reasonable price determination for sole source
        contracts was insufficient (29 occurrences);

    •   Required conflict of interest certifications were not obtained from the program
        officials requesting the sole source contract for 100 percent of the contracts
        audited (62 occurrences); and

1
  This does not include micro purchases, modifications, actions with $0 obligation, de-obligating actions,
task orders, delivery orders, and procurement actions by OIG.


U.S. Department of Labor—Office of Inspector General                                                         3
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


   •   There was no evidence that the contracting officer submitted the offering notice
       to the Small Business Administration (SBA) for a SBA 8(a) sole source award
       (1 occurrence).

We also determined general procurement procedures were not always followed for 35
of the 62 (56 percent) contracts. Our audit disclosed that: (1) There was no evidence
that the Excluded Parties List System (EPLS) and the Central Contractor Registration
list (CCR) were searched prior to awarding the contract (21 occurrences for the EPLS
and 12 occurrences for the CCR); (2) the contract period of performance was prior to
the contract award date (18 occurrences); (3) there was no evidence that DOL agencies
publicized contract award notices in FedBizOpps (7 occurrences); and (4) the award
amount of one contract exceeded the warrant authority of the contracting specialist who
signed it (1 occurrence).

These occurrences resulted from a control environment that did not ensure adherence
to applicable procurement procedures, nor were the decisions to award sole source
contracts adequately documented. We found inadequate higher level review in 25 of 62
(40 percent) sole source contracts audited. We also found agencies did not have an
internal quality control review process of their procurement activities and OASAM did
not have a consistent program for performing external monitoring reviews of other
agency procurement offices. By awarding sole source contracts and not following
general contracting procedures, OASAM could not demonstrate that it made the best
decisions in awarding these sole source contracts to carry out DOL activities.

In addition, OASAM could not locate 5 of 40 (13 percent) contract files we requested
because OASAM did not have an effective inventory control system in place. Without
these files, DOL cannot provide a complete history of the procurement actions or
support the basis for decisions and actions taken throughout the acquisition process.
Further, DOL would be unable to provide information for reviews, investigations,
litigation, or Congressional and Freedom of Information Act inquiries.

Recommendations

In summary, we recommend the Assistant Secretary for Administration and
Management develop and implement policies and procedures that require: appropriate
higher level reviews for sole source contracting actions with emphasis on the issues
identified in this report; agency internal quality control procedures be established and
performed; and OASAM to develop and implement a comprehensive oversight plan to
monitor agency procurement programs. In addition, OASAM should implement an
effective inventory control system to account for all procurement files at all times.




U.S. Department of Labor—Office of Inspector General                                       4
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


Agency Response

In response to the Draft Report, the Deputy Assistant Secretary for Operations, Senior
Procurement Official, agreed to issue appropriate guidance to address our
recommendations by the second quarter of FY 2009.

However, the Deputy Assistant Secretary disagreed with two conclusions in the report.
He disagreed that a sole source justification for a $1 million contract did not have the
proper approvals (See Finding 1, A.3). The Deputy Assistant Secretary stated this was
inaccurate because the agency submitted the proposed justification to the DOL
Procurement Review Board (PRB) and it was approved by the Chief Acquisition Officer.
The second was the finding that no conflict of interest certifications were provided by
program officials requesting the sole source contracts (See Finding 1, C). The Deputy
Assistant Secretary responded that conflict of interest certifications are provided for
actions requiring PRB review and are maintained in PRB files.

OIG Conclusion

Concerning the justification that did not have the required approvals for the $1 million
sole source contract, the DLMS makes a distinction between a proposed
noncompetitive acquisition that is submitted to the PRB for a review and a final award
made by a contracting officer. It states that the primary function of the PRB is to serve
as a senior-level clearing house to review proposed noncompetitive acquisitions and
assistance instruments and that review by the PRB and approval by the CAO only
authorizes the initiation of a noncompetitive acquisition. It further states that the CAO
approval is not the final determination for use of “other than full and open competition.“
Final determination and award is made by the contracting officer after the CAO approval
is obtained and the noncompetitive action is publicized. In this instance, the contract
justification was not approved by both the Competition Advocate and the contract
officer.

Concerning the conclusion that no conflict of interest certifications were provided by
program officials requesting the sole source contract, we are aware that conflict of
interest certifications are provided for actions requiring PRB review and are maintained
in PRB files. However, the certifications are used only in those cases where the
proposed contracting actions are submitted to the PRB. PRB review and
recommendation is only required for proposed contracts exceeding the simplified
acquisition threshold (over $100,000). DLMS-2, Chapter 835 requires the conflict of
interest certification for all requests for other than full and open competition.

Our finding and recommendations remain unchanged.




U.S. Department of Labor—Office of Inspector General                                       5
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                    6
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




September 30, 2008


                         Assistant Inspector General’s Report

Patrick Pizzella
Assistant Secretary
   for Administration and Management
U.S. Department of Labor
200 Constitution Ave., NW
Washington, DC 20210

The OIG conducted a performance audit of DOL’s sole source procurement practices.
Our objective was to answer the following question.

   Were proper procurement procedures followed when awarding sole source
   contracts?

To accomplish our audit, we reviewed 62 sole source contracts - 60 randomly selected
and 2 judgmentally selected (contracts over $1 million), totaling $15.5 million which
were awarded by DOL in FY 2007. Our audit did not include micro-purchases,
modifications, actions with $0 obligation, deobligating actions, task orders, delivery
orders, and procurement actions by OIG. Therefore, we made our selection from a
universe of 809 sole source contracts totaling over $47.8 million. The 62 sole source
contracts covered awards by four agencies: OASAM (36), MSHA (18), ETA (6), and
BLS (2). See Exhibit A for more details.

We conducted our audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

We found the majority of sole source contracts audited (41 of 62) had insufficient
justification or lacked other documentation required for sole source awards. In addition,
procedures required for all procurement actions were not followed for 35, or 56 percent,
of audited contracts.


U.S. Department of Labor—Office of Inspector General                                     7
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


Results and Findings

Objective – Were proper procurement procedures followed when awarding sole
source contracts?

Finding 1 - DOL did not always appropriately justify sole source procurements
and follow the FAR and DOL requirements.

Federal laws and regulations emphasize the importance of competition in awarding
contracts. Federal Acquisition Regulation (FAR) policy requires, with limited exceptions,
agencies to promote full and open competition in awarding Government contracts. FAR
and Department of Labor Manual Series (DLMS) provisions require justification for
awards that are not competed. In DOL, OASAM is responsible for the Department’s
procurement program. This includes ensuring that OASAM and the other agencies that
have procurement authority (BLS, ETA, MSHA, and OIG) perform procurements in
accordance with all appropriate laws and regulations. The results of our audit of 62
sole source contract files show that a high percentage were awarded that did not
comply with FAR and DLMS justification requirements.

In 41 of the 62 (66 percent) sampled sole source contracts totaling $15.5 million DOL
could not always demonstrate that the basis for awarding the contract without full and
open competition was appropriate. The 41 sole source contracts, totaling $14.1 million,
contained one or more of the following compliance deficiencies with the FAR and
Department justification requirements. (See Exhibit B for the 41 contracts and the
problems found.)

   •   Justifications to award sole source contracts were missing (10 occurrences),
       inadequate (7 occurrences), or lacked the required reviews and approvals
       (4 occurrences);

   •   The documentation of the fair and reasonable price determination for sole source
       contracts was insufficient (29 occurrences);

   •   Required conflict of interest certifications were not obtained from the program
       officials requesting the sole source contract for 100 percent of the contracts
       audited (62 occurrences); and

   •   There was no evidence that the contracting officer submitted the offering notice
       to the SBA for a SBA 8(a) sole source award (1 occurrence).

We also found compliance deficiencies with general FAR and DOL procurement
requirements in 35 of the 62 (56 percent) contracts audited. (See Exhibit C for the 35
contracts and the problems found.)




U.S. Department of Labor—Office of Inspector General                                      8
Report Number: 03-08-002-07-711
                              The DOL Controls Over Sole Source Procurements Needs Strengthening


      •   There was no evidence that the EPLS and the CCR list were searched prior to
          awarding the contract (21 occurrences for the EPLS and 12 occurrences for the
          CCR);

      •   The contract period of performance was prior to the contract award date
          (18 occurrences);

      •   There was no evidence that DOL agencies publicized contract award notices in
          FedBizOpps (7 occurrences); and

      •   The award amount of one contract exceeded the warrant authority of the
          contracting specialist who signed it (1 occurrence).

These deficiencies occurred because of: (1) weaknesses in DOL’s management
oversight of compliance with the FAR and Department requirements; and (2)
inadequate documentation of the justifications for awarding sole source contracts. In 25
of the 62 (40 percent) sole source contracts audited, there were inadequate higher level
reviews for the procurement actions. Additionally, the agencies had no internal quality
control review process of their procurement activities, and OASAM did not have a
consistent program for performing external monitoring reviews of other agency
procurement offices. As a result, there is increased risk DOL may award sole source
contracts inappropriately and, not receive the best price for the purchased product or
service. DOL needs to have effective internal controls in order to limit sole source
procurements and comply with all FAR and DOL requirements.

All executive branch agencies are required to follow policies and procedures in the
FAR 2 when purchasing goods and services. The FAR Part 6, Competition
Requirements, contains the requirements to promote full and open competition in the
acquisition process and identifies seven exceptions 3 permitting other than full and open
competition. The exceptions are:

      1. Only one responsible source and no other supplies or services will satisfy agency
         requirements.
      2. Unusual and compelling urgency.
      3. Industrial mobilization; engineering, developmental, or research capability; or
         expert services.
      4. International agreement.
      5. Authorized by statute.
      6. National security.
      7. Public interest.

The FAR also provides additional exceptions for certain types of contracts and these
criteria are described in more detail in the findings below.
2
    Issued as Chapter 1, Title 48 of the Code of Federal Regulations.
3
    See FAR 6.302.


U.S. Department of Labor—Office of Inspector General                                          9
Report Number: 03-08-002-07-711
                         The DOL Controls Over Sole Source Procurements Needs Strengthening


To determine if DOL appropriately awarded sole source contracts according to the FAR
and Department requirements, we sampled 60 randomly selected and 2 judgmentally
selected sole source contracts awarded in FY 2007. We judgmentally selected the two
sole source contracts because they were more than $1 million. The audit did not
include micro-purchases (which are procurements of $3,000 and less), modifications,
actions with $0 obligation, de-obligating actions, task and delivery orders, and
procurement actions performed by OIG. The following discusses the audit results of 62
sole source contracts.

A. Justifications to Award Sole Source Contracts Were Missing, Not Adequate, or
   Did Not Have the Required Reviews and Approvals.

In 21 of the 62 (34 percent) sole source contracts we found:

    •   10 did not have the required justification;
    •   7 had justifications that did not adequately support the reasons for deciding to
        award the contract without competition; and
    •   4 did not have the required reviews and approvals.

1. Sole Source Contracts Did Not Have The Required Justification.

There were 10 sole source contracts awarded without a justification as required by FAR.
The FAR provides different requirements for the various types of sole source
procurements. These types of procurement are:

            •   Above the Simplified Acquisition Threshold – more than $100,000;

            •   Simplified Acquisition Threshold – at or below $100,000; and

            •   Federal Supply Schedule.

Five of the sole source contracts awarded without justification were above the simplified
acquisition threshold, four were below the threshold and one was an award from the
Federal Supply Schedule.

The FAR contains several requirements for sole source procurements. These
requirements include:

        •   FAR 6.302 provides the circumstances permitting other than full and open
            competition.

        •    FAR 6.303-1 (a) (1) requires for any sole source contract, the contracting
            officer shall justify it in writing, certify its accuracy and completeness, and
            obtain the approval required in the FAR 6.304.



U.S. Department of Labor—Office of Inspector General                                          10
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


       •   FAR 6.303-2 establishes the required contents of these justifications. Each
           justification must contain minimum information that the FAR covers with 12
           specific elements. For a justification to be complete, each of the 12 elements
           must be addressed.

The FAR does make provisions for awards at or below the simplified acquisition
threshold which reduces the amount of evidence required to justify sole source
contracts. Specifically, FAR 13.106-3(b)(3) Special Situations, requires the contracting
officer to include additional statements explaining the absence of competition if only one
source is solicited and the acquisition does not exceed the simplified acquisition
threshold.

In effect, the FAR requires a written explanation to justify why only one contractor was
considered for the award and the contracting officer should include a basis for price
reasonableness for an acquisition that does not exceed the simplified acquisition
threshold.

Regarding the five contracts that were above the simplified acquisition threshold,
OASAM awarded three contracts totaling $3.7 million and MSHA awarded two contracts
totaling $505,000 without the required sole source justifications.

In one instance OASAM awarded a sole source contract on June 21, 2007, for
$189,312 to a construction contractor for work at several buildings at a Job Corps
center. The reason for the sole source award was an unusual and compelling urgency.
However, the contract file did not contain a sole source justification or any other
document describing the circumstances for unusual and compelling urgency. The file
only had the Job Corps program official’s memorandum requesting the OASAM
contracting official to prepare the sole source justification document. OASAM
contracting officials said the memorandum was the documentation for sole source
justification but added the document was missing key elements. We concluded this was
not a justification to support the sole source award.

Regarding the four contracts that were below the simplified acquisition threshold, MSHA
awarded three contracts totaling $29,580 and ETA awarded one contract for $7,500.
None of these four contract files contained written sole source justifications explaining
the absence of competition. MSHA officials were able to explain to us the reasons for
the sole source awards but they did not document them in the contract files. ETA
agreed that the justification for the sole source award should have been prepared.

The FAR provides different justification requirements for awards from the Federal
Supply Schedule. For sole source procurements in which competition was restricted
using the Federal Supply Schedule, the FAR requires that an agency must justify its
action. Specifically, FAR 8.405-6 provides the requirements for limited sources
justification and approval.




U.S. Department of Labor—Office of Inspector General                                       11
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


OASAM awarded a sole source contract for $1,240,150 from the Federal Supply
Schedule for technical support with OASAM’s internet website services. However,
OASAM did not prepare the required limited source justification. OASAM concurred
with our conclusion.

2. Sole Source Justifications Did Not Adequately Support the Reasons for Deciding to
Award the Contract Without Competition.

We found 7 sole source justifications did not contain an adequate explanation for
limiting competition. Four of these contracts were awards under the simplified
acquisition threshold and three were awards from the Federal Supply Schedule.

The four awards under the simplified acquisition threshold totaled $79,795. The files did
not contain documentation to support the statement explaining absence of competition.
Therefore, we could not determine whether or not the contracting officer adequately
demonstrated that the procurement should have been awarded without competition.

For sole source procurements under the simplified acquisition threshold, FAR 13.106-1
(b) (1) states contracting officers may solicit from one source if they determine the
circumstances of the contract action deem only one source is reasonably available
(e.g., urgency, exclusive licensing agreements, brand name or industrial mobilization).

In one instance, OASAM awarded a $20,000 contract for expert services. The file
documentation cited “only one responsible source” and “unusual and compelling
urgency” as the reasons for the sole source award. However, there was no evidence or
explanation to support the unusual and compelling urgency, except a statement saying
agency's testing case backlog and expectation of many additional FY 2007 testing
cases required the services of the vendor. According to the documentation, the
contractor was the only responsible source because "…efforts were made to solicit for
open competition, and many outside experts with this background are not interested in
working with the government as Plaintiff." However, the documentation had no
information to support the statement that only one source was reasonably available.
OASAM management agreed that the explanation for absence of competition was not
documented.

Regarding the three sole source contracts awarded from the Federal Supply Schedule,
BLS, MSHA and OASAM each awarded one contract that did not have adequate
documentation to support the justification used to restrict competition. The three
contracts totaled $124,542.

When using the Federal Supply Schedule to award sole source contracts, FAR 8.405-
6(b), requires the agencies’ justification to show that only one source was capable of
responding due to the unique or specialized nature of the work; the new work was a
logical follow-on to an original Federal Supply Schedule order, or that an urgent and
compelling need existed, and following the ordering procedure would have resulted in
unacceptable delays.


U.S. Department of Labor—Office of Inspector General                                     12
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




In one instance, BLS used the Federal Supply Schedule to award a sole source contract
of $21,467 for storage services. The agency justified the award on the basis that no
other vendor could fulfill the requirement based on a Request for Quotation posted on
the General Services Administration (GSA) e-buy site from the previous year. This
justification was not adequate because it was not based on current information. BLS
officials agreed but explained that they received the procurement request less than a
month before the contract was needed. Therefore, under these circumstances, they felt
that relying on the results of last year's Request for Quotation was reasonable enough
to award the purchase order as a sole source.

3. Sole Source Justifications Were Not Reviewed and/or Approved.

There were 4 sole source contracts totaling more than $4.2 million that included
justifications without one or more of the required reviews and approvals.

FAR 6.304 (a) provides the following approval requirement for sole source justifications:

   Contracts not exceeding $550,000 – approved by the contracting officer.

   Contracts over $550,000 but not exceeding $11,500,000 - approved by the
   competition advocate or a senior procurement executive of the agency. (In DOL, the
   Senior Competition Advocate is designated by the Deputy Assistant Secretary for
   Operations, OASAM.)

DOL established the Procurement Review Board (PRB) as a senior-level clearinghouse
to review proposed noncompetitive acquisitions and assistance instruments. The
provisions under the PRB are covered under DLMS-2, paragraph 836. PRB reviews
and recommends the approval or disapproval for the following types of proposed sole
source acquisitions to the Chief Acquisition Officer (CAO):

       •   Acquisitions over the simplified acquisition threshold, which are to be
           awarded under "other than full and open competition" procedures.

       •   Acquisitions over the simplified acquisition threshold using a make and model
           or “brand name description.”

       •   Amendments to any order under a Blanket Purchase Agreement that exceed
           the original negotiated order by $100,000 or more are to be treated as sole-
           source actions.

DLMS-2, paragraph 836 F(1) provides that the CAO approval is not the final
determination for the use of sole source. Before the sole source contract is awarded,
the justification for the sole source should be prepared in accordance with FAR 6.304 as
cited above.



U.S. Department of Labor—Office of Inspector General                                   13
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


Four sole source contracts had justifications without the required approvals and
certifications.

In one instance, ETA awarded a $1 million sole source contract to a university in which
the justification required by FAR 6.303 was not approved and signed by neither the
contracting officer nor the Competition Advocate. The justification indicated there was
only one responsible source and no other supplies or services would satisfy the agency
requirements.

Another example found MSHA did not submit the sole source award proposal to the
PRB for review and recommendation and to the CAO for approval. Further, the
justification was not signed by the contract officer. The sole source contract was
$107,681 for safety equipment and training devices. MSHA management told us that
they could not wait for PRB approval because the need was an unusual and compelling
urgency and that any delay would have caused serious damage to MSHA’s ability to
carry out its enforcement mission. However, MSHA did not document these
circumstances in the contract file. Additionally, while the DLMS-2 allows for exceptions,
urgency was not one of them. The justification in the contract file was not signed by any
MSHA official or reviewed by the PRB and approved by the CAO. MSHA contracting
officials told us the contract file contained an email showing the contracting officer
approved the justification. The email from the contracting officer stated "I saw the sole
source justification and have no problem with it." However, we concluded this was not
sufficient to meet the FAR requirements because it does not have a signature and does
not certify that the justification is accurate and complete.

With Federal Supply Schedule awards, the FAR 8.405-6 (a) (h) (2), requires that a
proposed order exceeding $550,000, but not exceeding $11.5 million, include a
justification that is approved by the Competition Advocate of the activity placing the
order.

OASAM placed a sole source order under the Federal Supply Schedule for a $769,470
contract to purchase security x-ray machines for the DOL National Office. The limited
source justification did not have the required approval by the Competition Advocate.
OASAM officials told us this occurred because the contracting officer forgot to obtain the
approval.

B. Documentation of the Fair and Reasonable Price Determination for Sole
   Source Contracts Was Not Sufficient.

In 29 of the 62 (47 percent) sole source contracts, there was either no written
determination for fair and reasonableness of the contract price, or there was inadequate
support for the determination. The following table provides the award method, the
number of contracts tested, and the number of exceptions.




U.S. Department of Labor—Office of Inspector General                                     14
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




            Fair and Reasonable Price Determination by Type of Award
                                                         Number of Contracts
                      Type of Award
                                                        Tested      Exceptions
 Above the simplified acquisition threshold                     7             2
 At or below simplified acquisition threshold                  24            16
 Federal Supply Schedule                                       11             1
 SBA 8(a) contractors                                          20            10
 Total                                                         62            29

Above the Simplified Acquisition Threshold

In 2 of the 7 (28 percent) sole source contracts above the simplified acquisition
threshold, there was an insufficient determination that the contract price was fair and
reasonable for 1 contract and inadequate support for the determination for the other
contract. The two sole source contracts totaled $2,513,081.

The FAR 15.402 (a) requires contracting officer to purchase supplies and services from
responsible sources at fair and reasonable prices.

In one instance, OASAM awarded a sole source contract for $2,405,400 to a service-
disabled veteran-owned small business (SDVOSB) construction contractor without a
complete fair and reasonable price determination. According to a memo in the file, the
price was determined to be fair and reasonable in comparison to a government
estimate. However, the government estimate was not in the contract file. OASAM
officials concurred with our conclusion and said it occurred because of an oversight by
the contracting specialist.

The second instance involved a MSHA sole source contract that did not have the
required PRB review as mentioned earlier in this report. MSHA awarded the $107,681
sole source contract for safety equipment and training devices without performing a fair
and reasonable price determination. The file contained a quote from the contractor for
each item purchased but there was no published price listing or any other method to
determine price reasonableness. Consequently, there was no evidence the contracting
officer verified the quoted prices were published prices. MSHA officials told us they did
not determine if the price was fair and reasonable because this is a single source
vendor and they set the pricing for both industry and government. Although MSHA
documented this in the contact file, we concluded that obtaining a quote from a single
contractor does not ensure that the prices are fair and reasonable.

At or Below Simplified Acquisition Threshold

In 16 of the 24 (66 percent) sole source contracts below the Simplified Acquisition, there
were inadequate determinations of whether or not the cost to the Government will be
fair and reasonable.


U.S. Department of Labor—Office of Inspector General                                      15
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


The FAR 13.106-3 (a) requires that before making an award under the simplified
acquisition threshold, the contracting officer must determine that the proposed price is
fair and reasonable. The DOL Acquisition Regulations, 48 CFR, Part 2953.101,
requires DOL agencies to use the Simplified Acquisition Documentation Checklist,
DL 1-2216, to document all acquisitions at or below the simplified acquisition threshold.
Part II of the checklist covers the basis for price reasonableness. Additionally, the FAR
8.602 (a) (1) requires that before purchasing items from the Federal Prison Industries
(FPI), agencies shall conduct market research. The agencies should determine
whether the FPI item is comparable to supplies available from the private sector that
best meet the Government's needs in terms of price, quality, and time of delivery.

The 16 sole source contracts without adequate price determinations totaled $322,196.
Specifically, we found:

   •   Two contract files did not contain any documentation that determinations were
       made as to whether the cost to the Government would be fair and reasonable.

   •   Five contract files had partially completed Simplified Acquisition Documentation
       Checklists. Specifically, Part II was either not completed or did not have the
       required supporting information. The files did not contain any other
       documentation to support price determination.

   •   Six contract files did not have sufficient information to support that the
       determination as to whether the cost to the Government would be fair and
       reasonable. For example, there was information to indicate that the price
       reasonableness was based on market research and/or established market price,
       but there was no evidence in the file that the market research was conducted.
       OASAM officials told us that the FAR does not require this level of documentation
       to support price reasonableness determination.

   •   Two contract files had inadequate documentation to support the determination of
       whether the cost to the Government would be fair and reasonable. The
       determination for one of the contracts stated only that the total cost appeared
       reasonable for the effort involved. The determination for the other contract stated
       that since the contractor is the sole manufacturer of this product, they have set
       the price.

   •   One contract file for a purchase from the FPI did not have documentation
       comparing its prices to private sector prices. There was no written determination
       that items purchased from FPI were comparable to the supplies available from
       private sector.




U.S. Department of Labor—Office of Inspector General                                    16
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


Federal Supply Schedule

We found 1 of the 11 (9 percent) sampled contracts awarded using the Federal Supply
Schedule contracts did not have a determination that the contract represented the best
value.

The FAR 8.405-2 (d) requires the agency to determine if the price is reasonable for
contracts using the Federal Supply Schedule that require a statement of work or
services priced at hourly rates.

MSHA awarded a sole source contract for $100,000 using the Federal Supply Schedule
in which they did not perform a fair and reasonable price determination. The contract
was for a fixed price of $20,000 per month for 5 months for services that required hourly
rates. MSHA management told us GSA already determined the prices to be fair and
reasonable. We concluded that there was no evidence to support that the contract
represented the best available value.

SBA 8(a) Contractors

We found that 10 of the 20 (50 percent) SBA 8(a) contracts audited were either
awarded without fair market price estimates or that the estimate lacked supporting
documentation. The 10 SBA 8(a) contracts totaled $6,180,250.

The FAR 19.807 (a) requires contracting officers to estimate the fair market price of the
work to be performed for contracts awarded under the SBA 8(a) program.

There were two SBA 8(a) contracts awarded without an estimate of the fair market
price. MSHA awarded one of the contracts for $552,032 and OASAM awarded the
other for $996,255. In each instance, the contract files did not contain evidence to
support a fair market price estimate. MSHA management stated that they did not have
to estimate the fair market price because SBA conducts the fair and reasonable
determination for prices when the vendor is certified as competent for the procuring
agency. OASAM management concurred with our conclusion that they needed to
estimate fair market prices.

Eight SBA 8(a) contracts did not have adequate documentation to support the fair
market price estimate. The following are examples of conditions that support our
conclusion:

   •   For one contract awarded by MSHA, a document in the contract file showed that
       the price reasonableness was determined based on Service Contract Act wage
       rates. However, the contract price was based on an hourly wage rate of $25.35
       which was higher than the Service Contract Act hourly wage rate of $14.03. The
       contract file did not contain an explanation of the reasonableness of the burden
       price (contractor’s overhead burden applied to the wage rate). MSHA officials



U.S. Department of Labor—Office of Inspector General                                    17
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


       told us that they did not have to determine price reasonableness because they
       based the contract price on the GSA schedule.

   •   For one contract awarded by BLS, a document in the contract file showed that
       the reasonableness of the price was based on market research. However, there
       were no documents in the file to support the market research. BLS official
       concurred that they should have documented the market research.

   •   For one contract awarded by ETA, a memo to the contract file stated that the
       contracting officer reviewed the proposal and found it to be reasonable and
       consistent with other task order contracts. However, the memo did not identify
       the other task order contracts that were compared. ETA officials agreed that
       they should have documented the other task orders used for the comparison.

C. Program Officials Requesting the Sole Source Contract Did Not Provide
   Conflict of Interest Certifications.

The required conflict of interest certifications were not obtained from the program
officials requesting the sole source contract for all 62 of the contracts we audited.

DLMS – 2, paragraph 835 (A) requires the program official responsible for an "other
than full and open competition" request or a request for contracted advisory and
assistance services shall, as part of the request, explain any past or existing business
or personal relationships with the proposed recipient or certify that none exists. This
requirement applies to all sole source contracts.

None of the contracting agencies were aware of this DLMS-2 requirement. The program
official responsible for the sole source award request is required to certify that no
conflicts exist. The contracting officer should ensure the certification is obtained and
included in the contract file. Without this certification, there is risk of an undisclosed
business or personal relationship that could exist between the responsible program
official and the vendor which could result in the government not receiving the best price
and service.

D. No Evidence That the Contracting Officer Submitted the Offering Notice to the
   SBA for an SBA 8(a) Sole Source Award.

One SBA 8(a) sole source award by OASAM for $100,328 did not have evidence that
the contracting officer submitted the offering notice to the SBA.

For contracts above the simplified acquisition threshold, DOL is required to submit at
least the offering letter to the SBA. DOL has a Partnership Agreement with SBA to
expedite the award of SBA 8(a) contracts and still meet the procurement requirement. It
allows DOL to assume acceptance by SBA if a notification of rejection is not issued
within 5 working days of the receipt of the offer by SBA. However, it still requires DOL



U.S. Department of Labor—Office of Inspector General                                       18
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


to submit an offering letter for sole source requirements exceeding the simplified
acquisition threshold.

       *          *         *          *          *        *         *         *

The following discusses the compliance issues we found with general FAR and DOL
procurement requirements for 35 of 62 (56 percent) sole source contracts audited. See
Exhibit C for a list of the 35 contracts and the deficiencies.

E. There Was No Evidence DOL Agencies Searched the EPLS and the CCR List
   Prior to Awarding the Contract.

Our audit of the 62 sole source contracts found no evidence that DOL agencies
searched the EPLS for 21 contracts awarded for $4.8 million, or searched the CCR for
12 contracts awarded for $5.4 million.

GSA operates the web-based EPLS and provides the names and addresses of all
contractors debarred, suspended, proposed for debarment, declared ineligible, or
excluded or disqualified. The FAR 9.405 requires that contracting officers review the
EPLS immediately prior to awarding the contract to ensure that no award is made to a
listed contractor who may be listed as debarred, suspended, or proposed for
debarment. Additionally, contractors debarred, suspended, or proposed for debarment
are excluded from receiving contracts, and agencies shall not solicit offers from, award
contracts to, or consent to subcontracts with these contractors, unless the agency head
determines that there is a compelling reason for such action.

The purpose of the CCR database is to increase visibility of vendor for specific supplies
and services; and establish a common source of vendor data for the Government. The
FAR 4.1103 requires agency contracting officers to verify that the prospective contractor
is registered in the CCR database before awarding a contract or agreement.

We accepted copies of the EPLS and CCR printouts or a completed Simplified
Acquisition Documentation Checklist as evidence that the agencies searched the EPLS
and CCR data base. We found in one instance, the OASAM searched the EPLS for the
wrong contractor. In another instance, a contract file contained a CCR printout but the
contractor's registration had expired at the time of the award. OASAM officials informed
us that they are in the process of establishing a DOL-wide best practice internal policy
for documenting EPLS and CCR searches.

Without assurance that these searches were performed and documented, there is a risk
that DOL could make awards to ineligible contractors. OIG agrees that OASAM’s
initiative to establish a DOL-wide best practice for documenting EPLS and CCR
searches would minimize this risk.




U.S. Department of Labor—Office of Inspector General                                   19
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


F. The Contract Period of Performance Was Prior to the Contract Award Date.

In 18 of the 62 (29 percent) contracts audited totaling $3.1 million, the performance start
date was prior to the contract award date.

Under FAR, 4.101, only the contracting officer shall sign contracts on behalf of the
United States. The contracting officer's name and official title shall be typed, stamped,
or printed on the contract. The contracting officer normally signs the contract after it has
been signed by the contractor.

We found 18 contracts in which the contract documents showed the period of
performance start dates were prior to the contract award dates. We compared the
contract award date (the date the contract officer signed the contract or the purchase
order date) to the effective date shown on the contract cover. If the contract cover did
not show the effective date, we used the performance start date found either on the
contract cover or other file documents such as the statement of work and work orders.
The following are examples of the exceptions found in the audit:

   ETA awarded a $7,500 contract to an individual for services after the performance
   start date. The period of performance start date was May 25, 2007, and the contract
   was signed on June 25, 2007. In effect, the contractor was performing services
   without contractual authorization.

   In another instance, OASAM awarded a $1,240,150 contract for technical support
   with DOL's web site. The contract period of performance was February 1, 2007, and
   the end date was March 31, 2007. The contracting officer signed the contract on
   May 16, 2007, more than three months after the performance start date. The
   contract cover form stated the award was for the final bridge contract with this
   contractor. An undated memo in the contract file showed that OASAM gave verbal
   authorization to the contractor to continue its services. We concluded the 3 month
   time lag between the start of the performance period and the date the contracting
   officer signed the contract was excessive.

G. There Was No Evidence that DOL Agencies Publicized Contract Award Notices
   in FedBizOpps.

Of the 38 contracts awarded for more than $25,000, 7 (18 percent) contained no
evidence that the agencies publicized the award in the FedBizOpps.

The Federal Business Opportunities internet website (FedBizOpps.gov) is the
Government-wide single point of entry where Government business opportunities
greater than $25,000, including synopses of proposed contract actions, solicitations,
and associated information, can be accessed electronically by the public. The
FedBizOpps is operated by GSA’s Federal Supply Service.




U.S. Department of Labor—Office of Inspector General                                       20
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


The FAR 5.201(a) requires agencies to issue notices of proposed contract actions that
exceed $25,000 by transmitting them to FedBizOpps. According to the FAR 5.201(c),
the primary purpose of the notice is to improve small business access to acquisition
information and enhance competition by identifying contracting and subcontracting
opportunities. The FAR contains exceptions to this requirement.

ETA, OASAM, and MSHA awarded the seven contracts, totaling more than $4.7 million,
which were not publicized in the Fed BizOpps. None of the seven contract files
contained an explanation as to why the actions were not published prior to the awards.

H. The Amount of One Contract Exceeded the Warrant Authority of the
   Contracting Officer Who Signed It.

MSHA awarded a $552,032 contract for clerical and administrative services. The
contract officer who signed the contract only had warrant authority up to $500,000.

According to FAR 1.603-3, contracting officers shall be appointed in writing on an
SF-1402, Certificate of Appointment, which shall state any limitations on the scope of
authority to be exercised, other than limitations contained in applicable law or
regulation.

According to the contract officer’s Certificate of Appointment, the level of contracting
authority was not to exceed $500,000.

   *          *          *          *          *        *          *          *

The conditions described above in sections A through H resulted from a control
environment that did not ensure adherence to applicable procurement procedures, nor
were the decisions to award sole source contracts adequately documented.
Specifically, we found internal control weaknesses in DOL’s management oversight of
the procurement process in relation to compliance with the FAR and Department
requirements. The FAR requires additional documentation for sole source awards
because of the associated risks. DOL procuring agencies have not implemented
appropriate control procedures to address the additional risks with sole source awards.

Government Accountability Office (GAO) Standards for Internal Control in the Federal
Government requires agencies to design their internal controls to assure that ongoing
monitoring occurs in the agency’s daily operations. The standards require monitoring to
include regular management and supervisory activities, comparisons, reconciliations,
and other actions people take in performing their duties.

Examples of weaknesses in DOL’s supervisory and oversight internal controls for
procurement included:

   •   Agencies had no evidence of a higher level review in 25 of the 62 (40 percent)
       contract files. The agencies lacked policies and procedures requiring


U.S. Department of Labor—Office of Inspector General                                       21
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


       procurement officials to document higher level review of contract files for
       compliance with the FAR and DOL requirements before they are awarded.
       Agency procurement officials told us that the FAR has no specific requirements
       for such reviews. We conclude that a higher level review of sole source
       contracts before they are awarded is a critical internal control procedure to
       ensure adherence to FAR requirements.

   •   Agencies did not have an internal quality control review process of contract
       actions that were completed to ensure they were prepared and executed in
       accordance with FAR and DLMS-2. The review process would enable agencies
       to identify systemic problems that warrant corrective action in the agencies’
       policies and procedures. Agency procurement officials told us they left the
       implementation of quality control reviews to the discretion of the managers or
       division chiefs operating the procurement activity.

   •   OASAM did not consistently perform quality control reviews or oversight activities
       over the agencies that have procurement authority or of OASAM’s own
       contracting operations. OASAM officials told us they try to perform procurement
       reviews of the agencies with procurement authority once every 3 years.
       However, of the agencies with procurement authority, OASAM reviewed BLS in
       FY 2007, MSHA in FY 2002, and is currently reviewing ETA. There was no
       documentation of prior ETA reviews. No formal reviews were conducted of the
       OASAM National and Regional Office operations.

Recommendations

We recommended the Assistant Secretary for Administration and Management:

1. Implement policies and procedures requiring:

   •   appropriate higher level reviews be performed and documented for sole source
       contracting actions with emphasis on the issues identified in this audit report;

   •   agency internal quality control procedures be established and performed to
       identify instances of non-compliance with the FAR and DOL requirements so that
       corrective action can be taken to reduce such incidents; and

   •   OASAM to develop and implement a comprehensive oversight plan for
       performing DOL-wide monitoring reviews.

Agency Response

In response to the Draft Report, the Deputy Assistant Secretary for Operations, Senior
Procurement Official, agreed to issue appropriate guidance to address our
recommendations by the second quarter of FY 2009.



U.S. Department of Labor—Office of Inspector General                                      22
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


However, the Deputy Assistant Secretary disagreed with two conclusions in the report.
He disagreed that a sole source justification for a $1 million contract did not have the
proper approvals (See Finding 1, A.3). The Deputy Assistant Secretary stated this was
inaccurate because the agency submitted the proposed justification to the DOL
Procurement Review Board (PRB) and it was approved by the Chief Acquisition Officer.
The second was the finding that no conflict of interest certifications were provided by
program officials requesting the sole source contracts (See Finding 1, C). The Deputy
Assistant Secretary responded that conflict of interest certifications are provided for
actions requiring PRB review and are maintained in PRB files.

OIG Conclusion

Concerning the justification that did not have the required approvals for the $1 million
sole source contract, the DLMS makes a distinction between a proposed
noncompetitive acquisition that is submitted to the PRB for a review and a final award
made by a contracting officer. It states that the primary function of the PRB is to serve
as a senior-level clearing house to review proposed noncompetitive acquisitions and
assistance instruments and that review by the PRB and approval by the CAO only
authorizes the initiation of a noncompetitive acquisition. It further states that the CAO
approval is not the final determination for use of “other than full and open competition.“
Final determination and award is made by the contracting officer after the CAO approval
is obtained and the noncompetitive action is publicized. In this instance, the contract
justification was not approved by both the Competition Advocate and the contract
officer.

Concerning the conclusion that no conflict of interest certifications were provided by
program officials requesting the sole source contract, we are aware that conflict of
interest certifications are provided for actions requiring PRB review and are maintained
in PRB files. However, the certifications are used only in those cases where the
proposed contracting actions are submitted to the PRB. PRB review and
recommendation is only required for proposed contracts exceeding the simplified
acquisition threshold (over $100,000). DLMS-2, Chapter 835 requires the conflict of
interest certification for all requests for other than full and open competition.

Our finding and recommendation remain unchanged.

Finding 2 - OASAM Did Not Have Effective Internal Controls to Account for
Contract Files

OASAM could not locate 6 of the 40 (15 percent) contract files at the time we requested
the files for the audit. OASAM located 1 of the 6 contract files 13 weeks after our initial
request, while the other 5 files were not located during our fieldwork. This occurred
because OASAM did not have effective internal controls in place to ensure that contract
files were accounted for at all times. Without these contract files, DOL cannot provide a
complete history of the procurement action concerning the background on the basis for
decisions and actions taken at each step in the acquisition process. Therefore, there is


U.S. Department of Labor—Office of Inspector General                                     23
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


no evidence to assure the sole source contracts were justified in accordance with the
FAR and DOL requirements. Additionally, without these contract files, DOL cannot
provide information for reviews, investigations, litigation, or Congressional and Freedom
of Information Act inquiries.

The following are FAR requirements related to creating and maintaining contract files:

FAR 4.800 prescribes requirements for establishing, maintaining and disposing
of contract files. The FAR 4.801, states in part that:
       (a) The head of each office performing contracting, contract
           administration, or paying functions shall establish files containing the
           records of all contractual actions.
       (b) The documentation in the files (see 4.803) shall be sufficient to
           constitute a complete history of the transaction….…
       (c) The files to be established include—
             (1) A file for cancelled solicitations;
             (2) A file for each contract; and

FAR 4.802(c) states:

Files must be maintained at organizational levels that ensure:
       (1) Effective documentation of contract actions;
       (2) Ready accessibility of principal users;
       (3) Minimal establishment of duplicate and working files;
       (4) The safeguarding of classified documents; and
       (5) Conformance with agency regulations for file location and
       maintenance.

FAR 4.802(d) states:

       If the contract files or file segments are decentralized (e.g., by type or
       function) to various organizational elements or to other outside offices,
       responsibility for their maintenance must be assigned. A central control
       and, if needed, a locator system should be established to ensure the
       ability to locate promptly any contract files.

GAO "Standards for Internal Control in the Federal Government,” provides that access
to resources and records should be limited to authorized individuals, and accountability
for their custody and use should be assigned and maintained. Further, all transactions
and other significant events need to be clearly documented, and the documentation
should be readily available for examination.

Our sample of contract files for the audit included 40 that were awarded by OASAM’s
Office of Procurement Services (OPS). OPS is responsible for performing OASAM
procurement actions and maintaining its files. OPS could not locate 6 of the 40 contract



U.S. Department of Labor—Office of Inspector General                                     24
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


files at the time we requested them. These contracts totaled $3,824,337. OPS located
one of the contracts 13 weeks after our initial request.

OPS officials told us that they had procedures for maintaining contract files but they
were not written. The officials said that contract files are stored in a secured file room
after the contract is awarded. An electronic spreadsheet is used to log-in and track
contract files. OSP officials told us that they implemented the contract log in December
2007, but they do not conduct any periodic inventories of the contract files.

According to OPS officials, possible causes for the missing files include:

   •   The contract specialist and contracting officer may not have filed the contract in
       the file room after the contract was awarded. There is no mandatory time frame
       to have the contract file filed after the award.

   •   An October 2007 re-organization of OPS changed the contract specialist’s and
       contracting officer’s assigned contracts. Therefore, it is possible the contracts
       are not with the contracting specialists and contracting officers who originally
       awarded them.

   •   OPS, including the file room, relocated in January 2007, and changed its filing
       method at that time. During the move, contract files may have been misfiled.

We concluded that OPS’ internal controls over the accountability of contract files were
not effective because they could not locate five contract files.

Recommendations

We recommend that the Assistant Secretary for Administration and Management:

2. Implement an effective inventory control system to account for all procurement files
   at all times.

3. Perform an inventory of contract files using the E-Procurement System (EPS) and
   the contract tracking sheet as a basis for identifying missing files, and take action to
   locate them.

Agency Response

In the response to the Draft Report, the Deputy Assistant Secretary for Operations
stated that during the first quarter of FY 2009, OASAM will implement an appropriate
inventory control system to account for all files. The response also stated that OASAM
will conduct an inventory of all active contract files maintained by OPS and take action
to locate or reconstitute those that are missing.




U.S. Department of Labor—Office of Inspector General                                        25
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


OIG Conclusion

Our finding and recommendations remain unchanged.




Elliot P. Lewis




U.S. Department of Labor—Office of Inspector General                                   26
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




Exhibits




U.S. Department of Labor—Office of Inspector General                                   27
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   28
Report Number: 03-08-002-07-711
                         The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                                 Exhibit A




    Universe and Sampled Procurements by Agency and Acquisition Threshold

                     Contracts               Contracts Over
               At or Below $100,000            $100,000                 Total Contracts
  Agency
   Name       No.         Amount          No.          Amount    No.          Amount
BLS             2    $       70,096                                2     $     70,096
ETA             3    $       46,889          3   $ 1,573,194       6     $ 1,620,083
MSHA           14    $      400,580          4   $ 1,164,714      18     $ 1,565,294
OASAM          21    $      432,469         15   $11,772,951      36     $ 12,205,420
Total
Sample         40    $        950,034       22   $14,510,859       62    $ 15,460,893
Total
Universe      743 $       13,423,901        66 $ 34,406,526      809 $ 47,830,427
Percent of
Universe      5%            7%            33%           42%       8%            32%




U.S. Department of Labor—Office of Inspector General                                      29
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   30
Report Number: 03-08-002-07-711
                                    The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                        Exhibit B
                                                                      Page 1 of 3
        Incidents of Non-Compliance With Sole Source FAR and DOL Requirements
                                                                                                     No
                                                                                                  Offering        No or
                                                              Justification   Justification Did   Notice to    Inadequate
                                                                Did Not        Not Have the        SBA of     Determination
         Contractor                                            Contain an        Required         8(a) Sole    for Fair and
      Contract Number                              No          Adequate        Approval and        Source      Reasonable
        DOL Agency               Amount       Justification    Rationale        Certification      Award      Contract Price
                                    Contracts over Simplified Acquisition Threshold
       BSI Contracting, Inc.
1.     DOLJ079624828             $2,405,400        X                                 X                             X
       OASAM – SDVOSB
       Facilities
       Development
2.     Corporation               $1,089,156        X
       DOLJ079625786
       OASAM – SDVOSB
       The University of Iowa
3.     DOLJ071A20492             $1,000,000                                          X
       ETA
       American Electric
       Power Company Inc.
4.
       DOLJ074R21067
                                  $400,000         X
       MSHA
       Macro-Z-Technology
       Company
5.
       DOLJ079625514
                                  $189,312         X
       OASAM
       CSE Corporation
6.     DOLJ074R21404              $107,681                                           X                             X
       MSHA
       Monongahela Power
       Company
7.
       DOLJ074R21040
                                  $105,000         X
       MSHA
                                      Total        5               0                 3               0             2
                                 Contracts at or below Simplified Acquisition Threshold
       Louis & Henry, Inc.
8.     DOLJ079624835               $96,535                                                                         X
       OASAM
       Haver Analytics Inc.
9.     DOLB079425642               $52,495                        X
       OASAM
       Panalytical Inc.
10.    DOLB074R21080               $36,684                                                                         X
       MSHA
       UNICOR, Federal
       Prison Industries, Inc.
11.
       DOLB074R21550
                                   $34,906                                                                         X
       MSHA
       Mucho Thomas P &
       Associates, Inc.
12.
       DOLB074R21415
                                   $32,463                                                                         X
       MSHA
       Eugene Muller
       (Industrial &
13.    Educational Measures        $20,000                        X
       DOLB079E25437
       OASAM




     U.S. Department of Labor—Office of Inspector General                                                                31
     Report Number: 03-08-002-07-711
                                    The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                        Exhibit B
                                                                      Page 2 of 3
        Incidents of Non-Compliance With Sole Source FAR and DOL Requirements

                                                                                                      No
                                                                                                   Offering        No or
                                                               Justification   Justification Did   Notice to    Inadequate
                                                                 Did Not        Not Have the        SBA of     Determination
         Contractor                                             Contain an        Required         8(a) Sole    for Fair and
      Contract Number                               No          Adequate        Approval and        Source      Reasonable
        DOL Agency               Amount        Justification    Rationale        Certification      Award      Contract Price
                           Contracts at or below Simplified Acquisition Threshold (Continued)
       Management
       Consulting
14.    Associates                  $20,000                                                                          X
       DOLB071A20598
       ETA
       White Sands
       Technology, Inc.
15.
       DOLB079624940
                                   $16,128                                                                          X
       OASAM
       Videojet
       Technologies
16.
       DOLB074R21076
                                   $14,004                                                                          X
       MSHA
       NCS Pearson, Inc.
17.    DOLB079625114               $13,953                                                                          X
       OAASAM
       Inter Parking
       Corporation
18.
       DOLB07MR20330
                                   $13,680          X                                                               X
       MSHA
       Verizon Maryland
19.    DOLB074R21034               $12,600          X                                                               X
       MSHA
       Saint Corporation
20.    DOLB079326098                $9,958                                                                          X
       OASAM
       Jean Dobbins
21.    DOLB071A20523                $7,500          X                                                               X
       ETA
       Allegheny Surveys
22.    DOLB074R21171                $3,800                         X                                                X
       MSHA
       Roadway Express
       Inc.
23.
       DOLB07CE21080
                                    $3,500                         X                                                X
       OASAM
       Windstream Corp.
24.    DOLB074R21247                $3,300          X                                                               X
       MSHA
       Elberton Granite
       Association, Inc.
25.
       DOLB074R21183
                                    $3,185                                                                          X
       MSHA
                                      Total         4               4                 0               0             16
                                              Federal Supply Schedule Orders
       Cascades
       Technologies Inc
26.
       DOLF079425436
                                 $1,240,150         X
       OASAM
       American Science
       and Engineering Inc
27.
       DOLF079626195
                                  $769,470                                            X
       OASAM


  U.S. Department of Labor—Office of Inspector General                                                                    32
  Report Number: 03-08-002-07-711
                                      The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                                                                   Exhibit B
                                                                                                                 Page 3 of 3

     Incidents of Non-Compliance With Sole Source FAR and DOL Requirements

                                                                                                        No
                                                                                                     Offering         No or
                                                                 Justification   Justification Did   Notice to     Inadequate
                                                                   Did Not        Not Have the        SBA of      Determination
         Contractor                                               Contain an        Required         8(a) Sole     for Fair and
      Contract Number                                 No          Adequate        Approval and        Source       Reasonable
        DOL Agency                Amount         Justification    Rationale        Certification      Award       Contract Price

                                        Federal Supply Schedule Orders (Continued)
       Technical Mgmt
       Services
28.
       DOLF074R21358
                                    $100,000                         X                                                 X
       MSHA
       First Federal Corp
29.    DOLF072J11808                 $21,467                         X
       BLS
       Xerox Corporation
30.    DOLF07CF20999                  $3,075                         X
       OASAM
                                        Total         1               3                 1               0              1

                                                       SBA 8(a) Contracts
       Tribalco, LLC.
31     DOLJ079625632              $1,527.931                                                                           X
       OASAM
       ABN Technologies
32     DOLJ079625278              $1,512,828                                                                           X
       OASAM
       ABN Technologies
33     DOLJ079625492              $1,099,517                                                                           X
       OASAM
       Tribalco, LLC.
34     DOLJ079625724                $996,255                                                                           X
       OASAM
       Concentric Methods
35     DOLJ074R21557                $552,032                                                                           X
       MSHA
       M. H. West & Co.
36     DOLJ071A20601                $250,000                                                                           X
       ETA
       B.I.G. Enterprises
37     DOLJ079625357                $181,488                                                                           X
       OASAM
       Radius Technology
38     DOLB079E24844                $100,328                                                            X
       OASAM
       Consolidated Safety
       Services, Inc.
39
       DOLB072J11936
                                     $48,629                                                                           X
       BLS
       Total Contracting, Inc
40     DOLB079E26334                  $6,500                                                                           X
       OASAM
       Aspen of DC,
41     DOLB074R21561                  $5,070                                                                           X
       MSHA
                                         Total         0              0                 0               1              10
                    Total for All 41 Contracts        10              7                 4               1              29



     U.S. Department of Labor—Office of Inspector General                                                                    33
     Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   34
Report Number: 03-08-002-07-711
                                   The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                         Exhibit C
                                                                       Page 1 of 3
           Incidents of Non-Compliance With General FAR and DOL Requirements
                                                                          Period of
                                                                         Performance   Award Notice     Warrant
         Contractor                                                      Was Before        Not         Authority
      Contract Number                        CCR Lists Not   EPLS Not      Contract    Publicized in     Was
        DOL Agency               Amount        Searched      Searched       Award      FedBizOpps      Exceeded
                               Contracts Over the Simplified Acquisition Threshold
       BSI Contracting, Inc
1.     DOLJ079624828            $2,405,400                                                    X
       OASAM
       Facilities Dev. Corp
2.     DOLJ079625786            $1,089,156        X            X                              X
       OASAM
       The Univ. Of Iowa
3.     DOLJ071A20492            $1,000,000        X            X             X                X
       ETA
       American Electric
4.     DOLJ074R21067              $400,000        X            X             X
       MSHA
       CMW & Associates
5.     DOLJ071A20599              $323,194        X            X
       ETA
       Macro-Z-Tech Co.
6.     DOLJ079625514              $189,312                     X
       OASAM
       CSE Corporation
7.     DOLJ074R21404              $107,681                     X                              X
       MSHA
       Monongahela Power
8.     DOLJ074R21040              $105,000                     X             X
       MSHA
                                     Total        4             7             3               4           0
                                 Contracts at or below the Simplified Acquisition Threshold
       Louis & Henry, Inc
9.     DOLJ079624835               $96,535        X            X                              X
       OASAM
       Federal Tech Service
10.    DOLB074R21135               $93,140                     X             X
       MSHA
       Haver Analytics Inc
11.    DOLB079425642               $52,495                                                    X
       OASAM
       Panalytical Inc
12.    DOLB074R21080               $36,684                                   X                X
       MSHA
       UNICOR, Fed Prison I
13.    DOLB074R21550               $34,906                     X
       MSHA
       Mgmt Consulting
14.    DOLB071A20598               $20,000                     X
       ETA
       Wheeling Jesuit Univ.
15.    DOLB07MR20434               $20,000        X            X
       MSHA
       Malouf, Inc
16.    DOLB071A20578               $19,389                     X
       ETA
       Copper River Info
17.    DOLB079F26093               $18,856                     X
       OASAM



     U.S. Department of Labor—Office of Inspector General                                                          35
     Report Number: 03-08-002-07-711
                                  The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                         Exhibit C
                                                                       Page 2 of 3
           Incidents of Non-Compliance With General FAR and DOL Requirements
                                                                          Period of
                                                                         Performance   Award Notice     Warrant
         Contractor                                                      Was Before        Not         Authority
      Contract Number                          CCR Lists      EPLS Not     Contract    Publicized in     Was
        DOL Agency              Amount        Not Searched    Searched      Award      FedBizOpps      Exceeded
                        Contracts at or below the Simplified Acquisition Threshold (Continued)
       White Sands Tech.
18.    DOLB079624940               $16,128                                    X
       OASAM
       Videojet Tech Inc.
19.    DOLB074R21076               $14,004                                    X
       MSHA
       Inter Parking Corp.
20.    DOLB07MR20330               $13,680         X            X             X
       MSHA
       Verizon Maryland
21.    DOLB074R21034               $12,600                                    X
       MSHA
       ESCGOV, Inc.
22.    DOLF079426304               $10,000                                    X
       OASAM
       Jean Dobbins
23.    DOLB071A20523                $7,500         X            X             X
       ETA
       OCE North America
24.    DOLB069E24698                $7,330                                    X
       OASAM
       FEMCO Inc.
25.    DOLB079K25123                $6,031                                    X
       OASAM
       Allegheny Surveys
26.    DOLB074R21171                $3,800                                    X
       MSHA
       Windstream Corp
27.    DOLB074R21247                $3,300                                    X
       MSHA
       Elberton Granite
28.    DOLB074R21183                $3,185                      X
       MSHA
                       Total                       4            10            12             3            0
                                             Federal Supply Schedule Orders
       Cascades Tech Inc.
29.    DOLF079425436            $1,240,150                                    X
       OASAM
       Technical Mgmt
       Services
30.
       DOLF074R21358
                                  $100,000         X            X             X
       MSHA
       Xerox Corporation
31.    DOLF07CF20999                $3,075                                    X
       OASAM
                                     Total         1             1            3              0             0
                                                   SBA 8(a) Contracts
       ABN Technologies
32.    DOLJ0796925492           $1,099,517                      X
       OASAM




  U.S. Department of Labor—Office of Inspector General                                                         36
  Report Number: 03-08-002-07-711
                                   The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                         Exhibit C
                                                                       Page 3 of 3
           Incidents of Non-Compliance With General FAR and DOL Requirements
                                                                          Period of
                                                                         Performance   Award Notice     Warrant
         Contractor                                                      Was Before        Not         Authority
      Contract Number                           CCR Lists     EPLS Not     Contract    Publicized in     Was
        DOL Agency              Amount         Not Searched   Searched      Award      FedBizOpps      Exceeded


                                           SBA 8(a) Contracts (Continued)
       Tribalco, LLC.
33.    DOLJ079625724              $996,255          X
       OASAM
       Concentric Methods,
       LLC.
34.
       DOLJ074R21557
                                  $552,032          X           X                                         X
       MSHA
       M. H. West & CO.,
       Inc.
35.
       DOLJ071A20601
                                  $250,000          X           X
       ETA
                                       Total        3           3             0             0             1
                                                   12           21           18             7             1
                     Total for All Contracts




  U.S. Department of Labor—Office of Inspector General                                                        37
  Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   38
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




Appendices




U.S. Department of Labor—Office of Inspector General                                   39
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   40
Report Number: 03-08-002-07-711
                           The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                                APPENDIX A
BACKGROUND

The Competition in Contraction Act of 1984, 41 U.S.C 253, requires full and open
competition for government contracts and has only a limited number of exceptions to
this rule. Agencies are not permitted to use procurements without full and open
competition (commonly referred to as sole source) unless they have written justification
and specific statutory or regulatory authority exists for sole source or limited
competition. Exceptions from the requirement for full and open competition must be
justified in writing and authorized by the appropriate government official. Therefore,
agencies should rarely seek to limit competition. The Competition in Contraction Act
was promulgated in the FAR. FAR 6.3 permits contracting without providing for full and
open competition under the following conditions:

          •   Only one responsible source and no other supplies or services will satisfy
              agency requirements
          •   Unusual and compelling urgency
          •   Industrial mobilization; engineering, developmental, or research capability; or
              expert services
          •   International agreement
          •   Authorized or required by statute
          •   National security
          •   Public interest

For simplified acquisitions (generally defined as awards at or below $100,000), FAR
13.106 permits contracting officers to solicit from one source if they determine the
circumstances of the contract action deem only one source is reasonably available
(e.g., urgency, exclusive licensing agreements, brand name or industrial mobilization

When awarding sole source acquisitions, Federal agencies must generally justify such
decisions in writing. Each justification must contain sufficient facts and rationale to
justify the use of the specific authority cited. The FAR requires the justification contain
the minimum amount of information and be approved in writing. Although simplified
acquisitions awarded as sole source require less documentation, they still need
statements explaining the absence of competition. 4 For sole source procurements in
which competition was restricted using the Federal Supply Schedule, the FAR requires
that an agency must justify its action. 5 The FAR contains separate and distinct sole
source justification criteria for certain socio-economic small business owned programs
including the SBA 8(a) firms that were included in our sample. Other programs, such as
the SDVOSB, do not have separate sole source justification requirements.

The Office of Federal Procurement Policy Act requires the head of each executive
branch agency to designate a competition advocate for the agency and for each
4
    FAR 13.106-3(b)(3)
5
    FAR 8.405-6


U.S. Department of Labor—Office of Inspector General                                        41
Report Number: 03-08-002-07-711
                           The DOL Controls Over Sole Source Procurements Needs Strengthening


procuring activity of the agency whose responsibilities include promoting full and open
competition. Agency competition advocates are required to review the contracting
operations of the agency and identify and report to the agency senior procurement
executive.

In DOL, OASAM, through the Department's Procurement Executive, is responsible for
implementing the Department's procurement program and ensuring that the program is
performing in accordance with the appropriate laws and regulations. The Department’s
procurement program is a decentralized structure with OASAM MSHA, ETA, BLS 6 , and
OIG having their own procurement authority. OASAM’s Business Operations Center
has two units with procurement responsibilities.

    The Office of Acquisition and Management Services (OAMS), establishes the
    procurement and grant policy for DOL. OAMS is responsible for implementing the
    DOL procurement oversight functions and the Competition Advocate responsibilities,
    administering the EPS, maintaining DOL procurement data in the Federal
    Procurement Data System-Next Generation (FPDS-NG), conducting procurement
    management reviews of regional and national offices, and providing support to the
    DOL PRB.

    The OPS negotiates, awards, and administers contracts for most DOL Agencies.

DOL’s procurement management information system is its internet web-based EPS.
DOL implemented the EPS with the goal to streamline, standardize, and automate the
procurement processes throughout the Department. The EPS supports multiple user
groups, including requisitioners who are broadly grouped into the requisition, review,
and approval functional user group, and acquisition specialists who are part of the
functional power user group made up of other acquisition and contract management
professionals, and budget, finance, and property management personnel.

According to data in the Department’s FY 2007 EPS, DOL awarded 3,652 sole source
procurement actions totaling more than $251 million. This represented 13.9 percent of
the $1.84 billion DOL awarded from 10,763 procurement actions. 7 We did not audit the
accuracy of this data. One of our data reliability procedures showed there was risk
about the accuracy of the data on the reported number and amount of sole source
procurements. We found that the data field designating the extent of competition was
not completed for 3,687 procurement actions totaling more than $662.8 million. This
represented 34 percent of the procurement actions and 36 percent of the total dollars
awarded for FY 2007. See the Methodology section in this report for our work on data
reliability.



6
  BLS' procurement authority for open market procurements is not to exceed $100,000 and
service/delivery orders from Government-wide acquisition contracts is not to exceed $500,000 per order.
7
  This represented all procurement actions such as contracts, purchase orders, blanket purchase
agreements, task orders, and modifications.


U.S. Department of Labor—Office of Inspector General                                                 42
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                           APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA
Objective

The OIG conducted an audit of sole source procurement practices in the DOL to
determine if sole source contracts were appropriately justified in accordance with FAR
and Department requirements. Our audit objective was to answer the following
question.

        Were proper procurement procedures followed when awarding sole source
        contracts?

Scope

The audit scope was DOL contracts awarded in FY 2007. The universe of contracts
DOL awarded for FY 2007 was 10,763 procurement actions totaling $1.84 billion. Of
this amount, DOL awarded 3,652 sole source procurement actions totaling more than
$251 million, which represented 34 percent of all procurement actions and 13.6 percent
of the total dollars awarded. Of the 3,652 sole source procurement actions, we
eliminated:

   •    micro-purchases, which are procurements of $3,000 and less;
   •    actions with negative balances (de-obligating actions);
   •    actions with $0 obligation;
   •    procurement actions performed by OIG’s contracting office;
   •    modifications; and
   •    task orders and delivery orders.

The remaining sole source contracts totaled 809 procurement actions with awards
valued at $47.8 million. We selected 71 sole source contracts for testing, 68 randomly
and 3 judgmentally because they were over $1 million. This allowed us to select all
contracts in the universe that were more than $1 million. We tested 62 of the 71 sole
source contracts selected because OASAM could not locate 5 contract files and 4
contract files were misclassified as sole source but were actually competed. The 62
sole source contracts tested totaled $15,460,893, or 32 percent of the awarded amount
for our universe of the 809 sole source contracts. See Exhibit A for detail on the
universe and audited contracts for each agency and award method. We did not audit
the contract costs to determine whether they were allowable, allocable, or reasonable
with Federal regulations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. The auditing standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We designed and


U.S. Department of Labor—Office of Inspector General                                     43
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


planned our audit scope and methodologies to meet our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

We performed the audit field work from December 2007 to July 2008 at the following
agencies in Washington, DC. - OASAM, BLS, and ETA. We also conducted field work
at MSHA’s National Office in Arlington, Virginia and OASAM’s Philadelphia Regional
Office in Philadelphia, Pennsylvania.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In planning and performing our audit,
we considered whether internal controls significant to the audit were properly designed
and placed in operation. This included reviewing DOL’s policies and procedures for
awarding sole source contracts. We confirmed our understanding of these controls and
procedures through interviews and documentation review.

Methodology

In designing the audit, we identified criteria key to awarding sole source contracts in the
FAR and the DLMS. We obtained OASAM technical bulletins that addressed sole
source awards. We conducted procedural walkthroughs with staff and managers in
OASAM's OPS to obtain an understanding of contracting procedures. We reviewed
contract files to obtain an understanding of file contents and documentation unique to
sole source awards.

In performing the audit, we evaluated internal controls used by OASAM for reasonable
assurance that sole source contracts are awarded in accordance with FAR and DLMS.
Our consideration of OASAM's internal controls for sole source procurement would not
necessarily disclose all matters that might be reportable conditions. Because of
inherent limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and may not be detected. We assessed OASAM's quality
assurance procedures and oversight of the DOL agencies that have been delegated
contracting authority. In our assessment of controls related to contracting review
processes we identified any quality procedures unique to sole source contracts.

To identify the universe of sole source contracts, we relied on contracting activity
reported in DOL’s EPS. We performed analytical procedures to assess the reliability of
the EPS data. This consisted of comparing the awarded amounts of FY 2007 EPS
contracting actions to amounts obligated in DOL’s accounting system, Department of
Labor Accounting and Related Systems. Although it was not possible to perform an
absolute comparison of the award amounts in the two systems, we concluded
differences were not significant and we could rely on EPS to contain all of DOL’s
contracting actions for FY 2007. We analyzed data fields in the EPS and found that the
Extent Competed field, used to code whether contracts were competed, was not
completed for 34 percent of the procurement actions and 36 percent of the awarded


U.S. Department of Labor—Office of Inspector General                                     44
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


amount of all procurement activity for FY 2007. Therefore, there was a risk that our
universe of sole source contracts was not complete. We also compared data in the
EPS to the FPDS-NG and found differences in the total number of contract actions and
the total dollar amounts awarded. However, we determined that the EPS data was
sufficient to use for the audit.

To determine if DOL complied with FAR and Department requirements for awarding
sole source contracts, we sampled 68 randomly selected and 3 judgmentally selected
sole source contracts awarded in FY 2007. We judgmentally selected the three sole
source contracts because they were more than $1 million and this allowed us to test all
the contracts in our universe that were more than $1 million. Of the 71 contracts in our
sample, OASAM could not locate 5 contract files and the agencies misclassified 4
contracts as sole source when they were actually competed. Therefore, for our
objective, we tested 62 sole source contracts totaling $15,460,893.

In our testing, we reviewed all documentation in the contract file and used this as the
basis for our conclusion on each FAR and DOL requirement tested.

Criteria

Federal Acquisition Regulation, March 2005, unless otherwise noted

   FAR, Part 4, Administrative Matters, January 3, 2006
   FAR, Part 5, Publicizing Contract Actions, May 19, 2006
   FAR Part 6, Competition Requirements, September 30, 2005
   FAR Part 8, Required Sources of Supplies and Services, September 30, 2005
   FAR Part 13, Simplified Acquisition Procedures, September 28, 2006
   FAR Part 15.4, Contract Pricing
   FAR Part 17, Special Contracting Methods
   FAR Part 19, Small Business Programs, January 3, 2006

Competition in Contraction Act of 1984, 41 United States Code (U.S.C.) 253

The Office of Federal Procurement Policy Act, 41 U.S.C 402

DLMS -2, Chapter 800, October 21, 1991

Department of Labor Acquisition Regulation System, Title 48, CFR 29

GAO Standards for Internal Control in the Federal Government, November 1999




U.S. Department of Labor—Office of Inspector General                                      45
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   46
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                           APPENDIX C
ACRONYMS AND ABBREVIATIONS


   BLS            Bureau of Labor Statistics
   CAO            Chief Acquisition Officer
   CFR            Code of Federal Regulations
   CCR            Central Contractor Registration
   DLMS           Department of Labor Manual Series
   DOL            U.S. Department of Labor
   EPLS           Excluded Parties List System
   EPS            E- Procurement System
   ETA            Employment and Training Administration
   FAR            Federal Acquisition Regulation
   FedBizOpps Federal Business Opportunities Internet Website
   FPDS-NG        Federal Procurement Data System–Next Generation
   FPI            Federal Prison Industries, Incorporated
   FY             Fiscal Year
   GAO            Government Accountability Office
   GSA            General Services Administration
   MSHA           Mine Safety and Health Administration
   OAMS           Office of Acquisition Management Services
   OASAM          Office of Assistant Secretary for Administration and Management
   OIG            Office of Inspector General
   OPS            Office of Procurement Services
   PRB            Procurement Review Board
   SBA            Small Business Administration
   SDVOSB         Service-Disabled Veteran-Owned Small Business Program




U.S. Department of Labor—Office of Inspector General                                   47
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   48
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening


                                                                           APPENDIX D
AGENCY RESPONSE TO THE DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                   49
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




U.S. Department of Labor—Office of Inspector General                                   50
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




U.S. Department of Labor—Office of Inspector General                                   51
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




U.S. Department of Labor—Office of Inspector General                                   52
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




U.S. Department of Labor—Office of Inspector General                                   53
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




U.S. Department of Labor—Office of Inspector General                                   54
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




U.S. Department of Labor—Office of Inspector General                                   55
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




U.S. Department of Labor—Office of Inspector General                                   56
Report Number: 03-08-002-07-711
                        The DOL Controls Over Sole Source Procurements Needs Strengthening




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

       Online:       http://www.oig.dol.gov/hotlineform.htm
       Email:        hotline@oig.dol.gov

       Telephone:    1-800-347-3756
                     202-693-6999

       Fax:          202-693-7020

       Address:      Office of Inspector General
                     U.S. Department of Labor
                     200 Constitution Avenue, N.W.
                     Room S-5506
                     Washington, D.C. 20210




U.S. Department of Labor—Office of Inspector General                                   57
Report Number: 03-08-002-07-711
